App. 1
IN THE UNITED STATES COURT OF
APPEALS FOR THE FIFTH CIRCUIT
--------------------------------------------------

No. 19-10184
--------------------------------------------------

MARK SHUMSKI,
Petitioner-Appellant
v.
LORIE DAVIS, DIRECTOR, TEXAS
DEPARTMENT OF CRIMINAL JUSTICE,
CORRECTIONAL INSTITUTIONS DIVISION,
Respondent-Appellee
-------------------------------------------------------------------------------------------------------------------------

Appeal from the United States District Court
for the Northern District of Texas
-------------------------------------------------------------------------------------------------------------------------

(Filed Oct. 9, 2019)
ORDER:
Mark Shumski, Texas prisoner # 01827345, was
convicted by a jury of sexual abuse of a child younger
than 14 years of age and was sentenced to 60 years of
imprisonment. He moves this court for a certificate of
appealability (COA) to appeal the district court’s dismissal on the merits of his 28 U.S.C. § 2254 petition.
Specifically, he contends that the district court erred by
denying relief on his claims that his trial counsel was ineffective for failing to object to and seek exclusion of

App. 2
testimony or for eliciting testimony that the child complainant was truthful.
To obtain a COA, Shumski must make a [sic] “a
substantial showing of the denial of a constitutional
right.” 28 U.S.C. § 2253(c)(2). When a claim is rejected
on the merits, a COA will be granted only if the movant
“demonstrate[s] that reasonable jurists would find the
district court’s assessment of the constitutional claims
debatable or wrong” or that the claims presented were
“adequate to deserve encouragement to proceed further.”
Slack v. McDaniel, 529 U.S. 473, 483-84 (2000) (internal quotation marks and citation omitted). Shumski
has not made the requisite showing. See id.
By failing to raise in the instant COA motion
claims that his trial counsel was ineffective for failing
to object to evidence of CPS’s findings that sexual
abuse occurred and object to evidence and argument
that he did not contest CPS’s findings of sexual abuse,
Shumski has abandoned the issues. See Hughes v.
Johnson, 191 F.3d 607, 613 (5th Cir. 1999).
Accordingly, the COA motion is denied.
/s/ James L. Dennis
JAMES L. DENNIS
UNITED STATES
CIRCUIT JUDGE

App. 3
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
MARK SHUMSKI,

§
§
Petitioner,
§
v.
§
§
LORIE DAVIS, Director,
§
Texas Department of
§
Criminal Justice, Correctional
§
Institutions Division,
§
Respondent
§

No. 4:18-CV-293-Y

OPINION AND ORDER
(Filed Feb. 4, 2019)
Before the Court is a petition for a writ of habeas
corpus pursuant to 28 U.S.C. § 2254 filed by Petitioner,
Mark Shumski, a state prisoner, against Lorie Davis,
director of the Texas Department of Criminal Justice,
Correctional Institutions Division, Respondent. After
having considered the pleadings and relief sought by
Petitioner, the Court has concluded that the petition
should be denied.
I.

FACTUAL AND PROCEDURAL HISTORY

In June 2011 Petitioner was indicted in Wise County,
Texas, Case No. CR16247, for continuous sexual abuse
of his stepdaughter A.G., a child younger than 14 years
of age. (Clerk’s R. 7, doc. 9-3.) On December 13, 2012, a

App. 4
jury found him guilty of the offense and assessed
his punishment at 60 years’ imprisonment. (Id. at 113,
117.) Petitioner’s conviction was affirmed on appeal
and the Texas Court of Criminal Appeals refused his
petition for discretionary review. (Docket Sheet 2, doc.
9-2.) Petitioner also filed a postconviction state habeascorpus application challenging his conviction, which
was denied by the Texas Court of Criminal Appeals
without written order on the findings of the trial court.
(SHR1 139-56, doc. 9-20; Action Taken, doc. 9-16.)
The state appellate court summarized the facts of
the case as follows:
The State charged [Petitioner] with committing two or more acts of sexual abuse
against A.G. “from on or about February 16,
2008[,] through May 16, 2011.” Specifically,
the State alleged that [Petitioner] had committed the offense of indecency with a child by
contact and that he had committed aggravated sexual assault by penetrating A.G.’s
sexual organ with his finger.
A.G. testified that [Petitioner] sexually
abused her for about three years before she finally told her mother [K.G.]. She said that, before the time that [Petitioner] married her
mother, [Petitioner] would come into her room
at night, slip his hand underneath her clothes,
and touch her vagina or insert his finger into
1

“SHR” refers to the documentary record of Petitioner’s state
habeas proceeding in WR-86,083-01; “Supp. SHR” refers to the
supplemental record in that proceeding.

App. 5
her vagina. A.G. testified that, even though
she told [Petitioner] “no” and told him that she
did not like what he was doing to her, [Petitioner] continued to sexually abuse her.
(Mem. Op. 2, doc. 9-11.)
II.

ISSUES

In three grounds, Petitioner claims he received ineffective assistance of trial counsel because counsel
failed to (1) object to and seek exclusion of testimony
that A.G. was truthful, (2) object to evidence of CPS’s
findings that sexual abuse occurred, and (3) object to
evidence and argument that Petitioner did not contest
CPS’s findings of sexual abuse. (Pet. 6-7 & App. i-ii, doc.
2.)
III.

RULE 5 STATEMENT

Respondent believes that the petition is neither
time-barred nor successive and that Petitioner has
properly exhausted his state-court remedies as to his
claims. (Resp’t’s Answer 4, doc. 7.)
IV.

STANDARD OF REVIEW

A § 2254 habeas petition is governed by the heightened standard of review provided for by the AntiTerrorism and Effective Death Penalty Act (AEDPA).
See 28 U.S.C. § 2254. Under the Act, a writ of habeas
corpus should be granted only if a state court arrives
at a decision that is contrary to or an unreasonable

App. 6
application of clearly established federal law as determined by the United States Supreme Court or that is
based on an unreasonable determination of the facts in
light of the record before the state court. Id. § 2254(d)
(1)–(2); Harrington v. Richter, 562 U.S. 86, 100-01 (2011).
This standard is difficult to meet but “stops short of
imposing a complete bar on federal court relitigation of
claims already rejected in state proceedings.” Richter,
562 U.S. at 102. Additionally, the Act requires that federal courts give great deference to a state court’s factual findings. Hill v. Johnson, 210 F.3d 481, 485 (5th
Cir. 2000). Section 2254(e)(1) provides that a determination of a factual issue made by a state court shall be
presumed to be correct.2 Further, when the Texas
2

Petitioner contends that the Court should not apply any
“heightened presumption of correctness” to the state habeas
court’s factual findings because the state habeas judge, who conducted only a paper hearing via affidavit, was not the same judge
who presided at his trial. (Pet’r’s Reply 2, doc. 13.) However, a
state court’s factual determinations are entitled to a presumption
of correctness under § 2254(e)(1), regardless of whether the state
habeas court held a live evidentiary hearing, on [sic] a paper hearing, or whether the state habeas judge was the same judge who
presided at trial. See Littlepage v. Davis, No. 4:15-CV188-A, 2016
WL 6330430, at *3, n.4 (N.D. Tex. Oct. 25, 2016), COA denied by
2017 WL 7689597 (5th Cir. Nov. 2, 2017); Pierson v. Thaler, No.
4:10-CV-717-Y, 2011 WL 7006878, at *5 n.1_(N.D.Tex. Nov. 15,
2011), R. & R. adopted by 2012 WL 104982 (N.D.Tex. Jan. 12,
2012). The AEDPA’s deferential scheme is mandatory. See Valdez
v. Cockrell, 274 F.3d 941, 951 (5th Cir. 2001). Furthermore, given
the nature of Petitioner’s claims, the state habeas judge had no
disadvantage in considering the claims by virtue of the fact that
he was not the same judge who presided at Petitioner’s trial. The
record was sufficient to adjudicate the claims, and it is clear that
the state court thoroughly reviewed the record.

App. 7
Court of Criminal Appeals denies relief in a state
habeas-corpus application without written order, it is
“presumed that the state court adjudicated the claim
on the merits in the absence of any indication or statelaw procedural principles to the contrary.” Richter, 562
U.S. at 99. In such a situation, a federal court may assume that the state court applied correct standards of
federal law to the facts, unless there is evidence that
an incorrect standard was applied. Townsend v. Sain,
372 U.S. 293, 314 (1963)3; Catalan v. Cockrell, 315
F.3d 491, 493 n.3 (5th Cir. 2002); Valdez v. Cockrell, 274
F.3d 941, 948 n.11 (5th Cir. 2001); Goodwin v. Johnson,
132 F.3d 162, 183 (5th Cir. 1997). A petitioner has
the burden of rebutting the presumption of correctness by clear and convincing evidence. See 28 U.S.C.
§ 2254(e)(1); Miller-El v. Cockrell, 537 U.S. 322, 340
(2003); Williams v. Taylor, 529 U.S. 362, 399 (2000).
In this case, the state habeas court entered express findings of fact and conclusions of law relevant
to Petitioner’s claims and, in denying relief, the Texas
Court of Criminal Appeals adopted those findings. Petitioner has failed to rebut the presumptive correctness of the state courts’ factual findings with clear and
convincing evidence; thus, this Court applies the presumption of correctness to those findings, including the
court’s credibility findings, in considering Petitioner’s
claims. See Richards v. Quarterman, 566 F.3d 553,

3

The standards of Townsend v. Sain have been incorporated
into 28 U.S.C. § 2254(d). Harris v. Oliver, 645 F.2d 327, 330 n.2
(5th Cir. 1981).

App. 8
563-64 (5th Cir. 2009); Galvan v. Cockrell, 293 F.3d 760,
764 (5th Cir. 2002).
V.

DISCUSSION

A criminal defendant has a constitutional right
to the effective assistance of counsel at trial. U.S.
CONST. amend. VI, XIV; Evitts v. Lucey, 469 U.S. 387,
396 (1985); Strickland v. Washington, 466 U.S. 668, 688
(1984). To establish ineffective assistance of counsel a
petitioner must show (1) that counsel’s performance
fell below an objective standard of reasonableness and
(2) that but for counsel’s deficient performance the
result of the proceeding would have been different.
Strickland, 466 U.S. at 688. Both prongs of the Strickland test must be met to demonstrate ineffective assistance. Id. at 687, 697.
In applying this test, a court must indulge a strong
presumption that counsel’s conduct fell within the wide
range of reasonable professional assistance or sound
trial strategy. Id. at 668, 688-89. Judicial scrutiny of
counsel’s performance must be highly deferential and
every effort must be made to eliminate the distorting
effects of hindsight. Id. at 689. Where a petitioner’s ineffective-assistance claims have been reviewed on
their merits and denied by the state courts, federal habeas relief will be granted only if the state courts’ decision was contrary to or involved an unreasonable
application of the Strickland standard in light of the
state-court record. Richter, 562 U.S. at 100-01 (quoting
Williams, 529 U.S. at 410)); Bell v. Cone, 535 U.S. 685,

App. 9
698-99 (2002). Thus, a federal court’s review of statecourt decisions regarding ineffective assistance of counsel must be “doubly deferential” so as to afford “both the
state court and the defense attorney the benefit of the
doubt.” Burt v. Titlow, 134 S. Ct. 10, 13 (2013) (quoting
Cullen v. Pinholster, 563 U.S. 170, 190 (2011)).
Petitioner raised his ineffective-assistance-ofcounsel claims in his state habeas application, and the
state habeas court conducted a hearing by affidavit.
Petitioner retained the law firm of Paul Belew and
David Singleton to represent him at trial. Singleton,
an experienced criminal-defense attorney, responded
to Petitioner’s allegations, in relevant part, as follows
(any spelling, grammatical, and/or punctuation errors
are in the original):
5.

Prior to the trial of the case, we had numerous
meetings both with [Petitioner] and between
ourselves to discuss and map out possible
strategies in defending [Petitioner] against
the charges.

6.

Prior to the commencement of trial and for
various reasons, my partner Paul Belew and I
had decided that we would limit objections
during the trial of the case to objections that
would likely preserve harmful error or likely
exclude particularly harmful testimony. Our
reasoning was several fold. We believed that
given the nature of the charges and the likely
testimony and demeanor of the witnesses that
our best approach would be to appear as
though we wanted to hide nothing; we welcomed all the evidence. Based on some prior

App. 10
experience with other members of the District
Attorney’s office, we also believed that it was
possible that the State might lodge a number
of objections, creating the appearance that it
did not want the jury to hear all the facts. We
also recognized the fact that objections can
call attention to testimony (in effect “waking
up” the jury) and were of the belief that while
limiting instructions and instructions to disregard might be significant in the appellate
process, they were far less significant in a
jury’s decision making process and are frequently disregarded.
7.

We did not decide to make no objections, rather to be judicious and specific with the objections that we did lodge.

8.

We specifically discussed this strategy with
[Petitioner] prior to trial and our reasons for
the approach.

9.

During the trial of the case, the State called
[CPS investigator] Kimberly Lowery. The State
had previously provided us with Ms. Lowery’s
report and investigative materials.

10. Of the various witnesses who testified at trial,
we did not consider Ms. Lowery to be the most
harmful or dangerous; rather we believed the
testimony of the Victim, her mother and a few
others would likely be accorded more weight
by the jury.
11. Our reasoning was as follows. Specifically,
we felt neither Ms. Lowery nor her investi
gation would be accorded great weight or

App. 11
significance by the jury. Ms. Lowery had only
been working for Child Protective Services for
a little over a year at the time of the investigation. She performed a limited, non-criminal
investigation in which she interviewed only
witnesses favorable to the State. After hearing only one side of the story, she did not conclude [Petitioner] had committed the act, but
rather that there was “reason to believe” the
allegations.
12. At trial, Ms. Lowery’s testimony did not vary
significantly from what we anticipated. In addition, by this point in the trial, the jury did
not appear particularly attentive during her
testimony. There were several occasions where
we could have objected – indeed, had we believed that the testimony was particularly
harmful or that the jury was particularly attentive or interested we could have made objections simply to interrupt the flow of her
testimony. This was not the case.
13. My partner, Paul Belew, usually watches the
jury during testimony and questioning. If the
jury appears “interested” in a witness or line
of questioning he will nudge me or lean over
and say “object.” Nothing he or I observed during Ms. Lowery’s testimony convinced us to alter our initial strategy. In fact, during her
direct testimony I leaned over and conferred
with him briefly and determined to address
matter on cross-examination rather than
“waking the jury up.”

App. 12
14. [K.G.] was asked by the State, “And after you
– after you received this information, what did
you do?” In her response, she added the statement she believed her daughter. Similarly
when she was later asked about [Petitioner]’s
response when he was confronted with the allegations, she responded that her daughter
has no reason to lie. [Petitioner] wanted to
talk about the accusations and [K.G.] was
asked if they ever talked about it and replied
that she did not because she believed her
daughter. In each case the responses complained of in the writ were unsolicited and
non-responsive. An objection would merely
call attention to and emphasize the answers
in the minds of the jury. We believed an instruction to disregard would not be particularly effective.
15. Ms. Lowery was also asked by the State “How
would you describe [A.G.]’s demeanor during the interview?” In response, Ms. Lowery
added the statement that the victim was credible. Again, we judged that objecting to her response would only serve to call attention to it.
16. Ms. Lowery later testified that her supervisor
reads over and approves all findings, “she has
to read over the case and approve it.” In other
words, her supervisor does no independent or
additional investigation (the Forensic Interview took place before the finding). On cross,
we confirmed that her part in the investigation was conducting the Forensic Interview.

App. 13
17. With respect to [Petitioner]’s failure to appeal
the finding, first, Ms. Lowery confirmed that
her findings were made after hearing only
one side of the story – she never interviewed
[Petitioner]. Second, she conceded that she
“leave[s] the investigation, the criminal matter, to the Wise County Sheriff ’s Office.” Third,
Ms. Lowery admitted she had no knowledge
as to whether [Petitioner] was aware of or
served with the finding.
18. [Petitioner] complains that Detective Reynolds
was asked if he would have filed a complaint
if he believed the accusations were false. First,
the various burdens of proof had been addressed in voir dire and the jury was aware
that the police operate at the lowest level of
probable cause. Second, as soon as the question was asked, we believed it safe to assume
that a jury would assume the only answer Detective Reynolds could give was he would not
have filed a case if he disbelieved the victim.
Based on that assumption, an objection would
only serve to heighten the significance of his
answer.
19. [Petitioner] complains of statements made by
Ms. Ivy, the victim’s softball coach. The two
specific lines of questions were that the victim
on one occasion became angry with [Petitioner] and that the victim never told her a lie.
We believed neither line was particularly harmful or significant. With respect to the former,
most children get angry from time to time.
With respect to the latter, we believed Ms. Ivy
would qualify as a reputation witness and her

App. 14
testimony that the victim never told her a lie
tended to discredit her. It showed she either
did not know the victim well or that she was
undiscerning. The jury had several parents,
and we believed parents knew children do in
fact lie.
(SHR 15-19, doc. 9-19 (record citations omitted).)
Consistent with counsel’s affidavit, and following
a thorough examination of the record, the state habeas
court entered findings of fact, too numerous to list here.
Based on those findings, and applying the Strickland
standard and relevant state law, the state court entered the following legal conclusions:
III. CONCLUSIONS OF LAW APPLICABLE
COUNSEL’S DECISION NOT TO OBJECT
TO TESTIMONY REGARDING THE CREDIBILITY OF A.G.
1.

Not objecting to testimony regarding the truthfulness of a child witness is not per se deficient performance.

2.

Not objecting to testimony regarding the
truthfulness of a child witness could be a reasonable trial strategy.

3.

Counsel provided a reasonable explanation as
to why he did not object to testimony regarding the complainant’s truthfulness. Counsel
stated his trial strategy was to avoid emphasizing the witness’s testimony by objecting.

App. 15
4.

Counsel’s performance was not deficient for
not objecting to testimony and jury argument
regarding the complainant’s truthfulness.

5.

The evidence against [Petitioner] is strong
and would support a finding of guilt by the
jury even if the evidence to which [Petitioner]
objects were disregarded.

6.

[Petitioner] has not shown he was harmed by
counsel’s decision not to object to testimony
regarding the complainant’s truthfulness.

IV. CONCLUSIONS OF LAW APPLICABLE
COUNSEL’S DECISION NOT TO OBJECT
TO TESTIMONY REGARDING THE RESULTS OF THE CPS INVESTIGATION
1.

To show ineffective assistance of counsel
based on a failure to object to evidence, the
applicant must show the trial judge would
have erred in overruling the objection.

2.

A witness may testify to an opinion based on
her perceptions if the testimony is helpful to
determine [sic] of a fact in issue.

3.

An opinion is not objectionable simply because it embraces an ultimate issue.

4.

[Petitioner] has failed to show that the trial
judge would have erred in overruling an objection regarding testimony about the results
of the CPS investigation.

5.

Counsel’s decision not to object to the results
of the CPS investigation was a reasonable

App. 16
trial strategy because counsel was trying to
avoid emphasizing the testimony.
6.

Counsel’s decision not to object to the results
of the CPS investigation was a reasonable
trial strategy because counsel repeatedly emphasized the lower burden of proof for a CPS
investigation.

7.

Counsel’s performance was not deficient for
deciding not to object to testimony regarding
the results of the CPS investigation.

8.

The evidence against [Petitioner] is strong
and would support a finding of guilt by the
jury even if the evidence to which [Petitioner]
objects were disregarded.

9.

[Petitioner] has not shown he was harmed by
counsel’s decision not to object to testimony
regarding to the results of the CPS investigation.

V.

CONCLUSIONS OF LAW APPLICABLE
COUNSEL’S DECISION NOT TO OBJECT
TO TESTIMONY REGARDING [PETITIONER]’S FAILURE TO CONTEST THE
CPS INVESTIGATION

1.

To show ineffective assistance of counsel
based on a failure to object to evidence, the
applicant must show the trial judge would
have erred in overruling the objection.

2.

[Petitioner] has failed to show that the trial
judge would have erred in overruling an

App. 17
objection to testimony regarding [Petitioner]’s
failure to contest the CPS investigation.
3.

Counsel’s decision not to object to the testimony was a reasonable trial strategy. Counsel
effectively cross-examined Lowery; Lowery
admitted she had no knowledge as to whether
[Petitioner] was aware of the finding.

4.

Counsel’s performance was not deficient because he decided not to object to testimony or
argument regarding [Petitioner]’s failure to
contest the CPS findings.

5.

[Petitioner] has not shown he was harmed by
counsel’s decision not to object to testimony
regarding to the results of the CPS investigation.

6.

The evidence against [Petitioner] is strong
and would support a finding of guilt by the
jury even if the evidence to which Applicant
objects were disregarded.

7.

Even if trial counsel’s performance was deficient, [Petitioner] has failed to prove, by a preponderance of the evidence, that there is a
reasonable probability that, but for trial counsels’ unprofessional errors, the result of the
proceeding would have been different.

(Id. at 11-14 (citations omitted).)
Deferring to the state courts’ factual findings,
and having independently reviewed Petitioner’s claims
in conjunction with the state-court record, the state
courts’ application of Strickland was not objectively

App. 18
unreasonable. Petitioner has not demonstrated deficient performance. A petitioner shoulders a heavy burden to overcome a presumption that his counsel’s
conduct is strategically motivated and to refute the
premise that “an attorney’s actions are strongly presumed to have fallen within the wide range of reasonable professional assistance.” Messer v. Kemp, 760 F.2d
1080, 1090 (11th Cir. 1985). Petitioner’s claims involve
strategic decisions made by counsel. Such decisions are
virtually unchallengeable and generally do not provide
a basis for habeas-corpus relief on the grounds of ineffective assistance of counsel. Knowles v. Mirzayance,
556 U.S. 111, 124 (2009); Strickland, 460 U.S. at 689.
A failure to object does not constitute deficient representation unless a sound basis exists for objection.
See Emery v. Johnson, 139 F.3d 191, 198 (5th Cir. 1997)
(a futile or meritless objection cannot be grounds for a
finding of deficient performance). Even with such a basis, however, counsel may render effective assistance
despite a failure to object when the failure is a matter
of trial strategy. See Burnett v. Collins, 982 F.2d 922,
930 (5th Cir. 1993) (noting that a failure to object may
be a matter of trial strategy as to which courts will not
second guess counsel). Contrary to Petitioner’s assertion, counsel’s strategic decisions do not “ring hollow”
and were within the realm of reasonable trial strategy.
(Pet’r’s Reply 5, doc. 13.) Attorneys frequently decide
whether to object or not based on various issues of
strategy, including a desire not to emphasize damaging
evidence. See Dodson v. Stephens, 611 Fed. App’x 168,
176 (5th Cir. 2011) (quoting Walker v. United States,

App. 19
433 F.2d 306, 307 (5th Cir. 1970)); Richard v. Whitley,
47 F.3d 424, 1995 WL 71043, at *4 (5th Cir. 1995); Hardamon v. United States, 319 F.3d 943, 949 (7th Cir.
2003).
VI.

Conclusion

For the reasons discussed, the Court DENIES Petitioner’s petition for a writ of habeas corpus pursuant
to 28 U.S.C. § 2254. Further, Federal Rule of Appellate
Procedure 22 provides that an appeal may not proceed
unless a certificate of appealability is issued under
28 U.S.C. § 2253. A certificate of appealability may issue “only if the petitioner has made a substantial
showing of the denial of a constitutional right.” MillerEl v. Cockrell, 537 U.S. 322, 336 (2003). “Under this
standard, when a district court denies habeas relief by
rejecting constitutional claims on their merits, ‘the petitioner must demonstrate that reasonable jurists
would find The district court’s assessment of The constitutional claims debatable or wrong.’ ” McGowen v.
Thaler, 675 F.3d 482, 498 (5th Cir. 2012) (quoting Slack
v. McDaniel, 529 U.S. 473, 484 (2000)). Petitioner has
not made a showing that reasonable jurists would
question this Court’s resolution of his constitutional
claims. Therefore, a certificate of appealability should
not issue.

App. 20
SIGNED February 4, 2019.
/s/ Terry R. Means
TERRY R. MEANS
UNITED STATES
DISTRICT JUDGE

App. 21
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
MARK SHUMSKI,

§
§
Petitioner,
§
v.
§
§
LORIE DAVIS, Director,
§
Texas Department of
§
Criminal Justice, Correctional
§
Institutions Division,
§
Respondent
§

No. 4:18-CV-293-Y

FINAL JUDGMENT
(Filed Feb. 4, 2019)
In accordance with its opinion and order signed
this day, the Court DENIES the petition of Mark
Shumski pursuant to 28 U.S.C. § 2254 in the abovecaptioned action.
SIGNED February 4, 2019.
/s/ Terry R. Means
TERRY R. MEANS
UNITED STATES
DISTRICT JUDGE

App. 22
CAUSE NUMBER
WR-86,083-01
IN THE COURT OF CRIMINAL APPEALS
OF TEXAS
EX PARTE MARK JOSEPH SHUMSKI
On Appeal from Cause Number CR16247-A
In the 271st Judicial District Court of Wise County, Texas
TRIAL COURT’S
FINDINGS OF FACT AND
CONCLUSIONS OF LAW
(Filed Oct. 3, 2017)
The Court, after considering the facts and affidavit
of counsel in this cause, hereby finds the following:
I.

FINDINGS OF FACT
1.

On May 20, 2011 Applicant Mark Joseph
Shumski was arrested. He requested courtappointed counsel on the same day. (1 C.R. at
8-9).

2.

On June 22, 2011, a Wise County Grand Jury
indicted Applicant on the charge of Sexual
Abuse of a Child, Continuous: Victim Under
14. (1 C.R. at 7).

3.

The Applicant retained the law firm of Paul
Belew and David Singleton. (Singleton Affidavit at 1).

App. 23
4.

Prior to trial, attorneys Belew and Singleton
met with the Applicant to discuss trial strategies. (Singleton Affidavit at 2).

5.

Prior to trial, attorneys Belew and Singleton
decided to limit their trial objections to those
objections that would preserve harmful error
or be likely to exclude particularly harmful
testimony. The attorneys believed it was in
the Applicant’s best interest not to give the
jury the impression that the Applicant was
trying to hide anything from the jury. (Singleton Affidavit at 2).

6.

On November 29, 2012, Applicant’s attorneys
filed fourteen motions with the trial court. (1
C.R. at 21-73).

7.

On December 10, 2012, Applicant’s attorneys
filed a motion to quash the indictment. (1 C.R.
at 88).

8.

On December 10, 2012, Applicant’s attorneys
filed a motion in limine. (1 C.R. at 92-96).

9.

On December 11, 2012, Applicant’s attorneys
filed a jury election. (1 C.R. at 102).

10. On December 11, 2012, Applicant’s attorneys
filed an application for felony probation. (1
C.R. at 104).
11. Both Paul Belew and David Singleton represented Applicant at trial. (1 R.R. at 4) (2 R.R.
at 7).
12. Attorney Singleton invoked the Rule. (2 R.R.
at 94).

App. 24
13. Attorney Belew reserved opening statement
during the guilt phase. (2 R.R. at 94). The defense later rested without opening. (3 R.R. at
82).
14. Evidence supporting Applicant’s guilt:
a.

Kimberly Gandy, A.G.’s mother, testified
i.

On May 18, 2011, A.G.’s friend, K.,
came to her and said, “A.G. needs to
tell you something.” (2 R.R. at 111).

ii.

A.G. made an outcry to her on May
18, 2011. (2 R.R. at 111).

iii. A.G. was sobbing when she told her
Applicant had been touching her in
her “lady parts.” (2 R.R. at 111-112).
iv. A.G. told her the touching was under
her clothes and with Applicant’s finger. A.G. told her it “went in.” (2 R.R.
at 112).
v.

A.G. told her the touching went on for
three years. (2 R.R. at 113).

vi. When she confronted Applicant, Applicant did not deny touching A.G.
Applicant replied, “We need to talk
about this. Can we work through
this?” (2 R.R. at 115).
b.

The child victim, A.G., testified
i.

Her date of birth was XXXXXXX XX
XXXX and she was fourteen years old
at the time of trial. (2 R.R. at 158).

App. 25
ii.

She initially told a friend, K., in 2010
that Applicant had been touching
her, but she did not tell her mother at
the time. (2 R.R. at 172, 191).

iii. On May 18, 2011, she told her mother
Applicant had been touching her at
the urging of her friend, K. (2 R.R. at
172).
iv. She told her mother Applicant was
touching her in her “lower lady areas” with his hands and underneath
her clothing. (2 R.R. at 172-73).
v.

Applicant would put his fingers inside her vagina. (2 R.R. at 173).

vi. The touching began when the family
moved to Wise County. (2 R.R. at
174).
vii. The first time Applicant touched her
she was in the third grade and that
the touching hurt. (2 R.R. at 174).
viii. Applicant would come in her room
when she was asleep. (2 R.R. at 177).
ix. Applicant would lie next to her and
touch her vagina with his finger. His
finger would go inside. (2 R.R. at 17778).
x.

She told Applicant to stop but he did
not. (2 R.R. at 177).

xi. Applicant asked her to have sex with
him. (2 R.R. at 179).

App. 26
xii. Applicant never touched her with his
penis, exposed his penis, or put his
mouth on her vagina. (2 R.R. at 180).
xiii. The touching occurred from 2008 –
2011, once or twice a week. (2 R.R. at
180).
xiv. The last time Applicant had touched
her had been two days before the outcry. (2 R.R. at 174).
xv. Applicant told her not to tell anyone
or they would both get into trouble. (2
R.R. at 181).
xvi. She did not feel safe at night when
she went to bed. (2 R.R. at 182).
xvii. She was afraid she was going to lose
her family if she reported the abuse.
(2 R.R. at 182).
xviii. She was afraid her mother would not
believe her if she reported the abuse.
(2 R.R. at 185).
xix. Applicant treated her differently than
her siblings and step-sibling; Applicant gave her special things. (2 R.R.
at 185).
c.

Brenda Crawford, SANE nurse, testified
i.

She performed a sexual assault examination on A.G. on May 19, 2011.
(2 R.R. at 212).

App. 27
ii.

A.G. told Crawford that her stepfather, Mark Shumski, sexually abused
her. (2 R.R. at 215).

iii. A.G. told Crawford, “He just touched
me inappropriately. It started about
three years ago. Monday night was
the last time. He puts his fingers
in bad places. After everybody is
asleep, he comes into my room. He
will start to touch me. I wake up and
tell him to stop. He’d stop eventually.”
(2 R.R. at 215).
iv. A.G. told Crawford that Applicant
penetrated her vagina with his finger. (2 R.R. at 216).
v.

A.G. told Crawford the last incident
of sexual abuse was May 16, 2011
around midnight. (2 R.R. at 219).

vi. Prior to puberty, A.G.’s hymen would
have been sensitive to touch and
touching would have caused pain. (2
R.R. at 220).
vii. A.G. had begun menstruation at age
11. (2 R.R. at 220).
viii. There were no visible injuries to
A.G.’s genitalia and that based on the
A.G.’s outcry, she would not expect to
find injuries.

App. 28
d.

Terri Ivy, softball coach, testified
i.

On one occasion, she observed A.G.
jerk away from Applicant and run off
when he touched her. (3 R.R. at 57).

ii.

After the incident, A.G. was “inconsolable.” (3 R.R. at 82).

iii. She believed there was “something
wrong going on with [A.G.].” (3 R.R.
at 58).
15. Applicant’s attorneys did not object to the admission [sic] the following exhibits at trial:
a.

State’s Exhibit 1 (photograph) (2 R.R. at
104);

b.

State’s Exhibit 2–5 (photographs) (2 R.R.
at 122); and

c.

State’s Exhibit 6 (photograph) (4 R.R. at
33).

16. Applicant’s attorneys objected to the following
testimony at trial:
a.

Testimony by Kimberly Gandy (speculation and bolstering) (2 R.R. at 115);

b.

Testimony by Kimberly Gandy (hearsay)
(2 R.R. at 156);

c.

Testimony by A.G. (hearsay) (2 R.R. at
170);

d.

Testimony by A.G. (leading) (2 R.R. at
185);

App. 29
e.

Testimony by Brenda Crawford (bolstering) (2 R.R. at 213);

f.

Testimony by Brenda Crawford (hearsay)
(2 R.R. at 215);

g.

Testimony by Terry Ivy (relevance) (3
R.R. at 58); and

h.

Testimony by Terry Ivy (speculation) (3
R.R. at 64).

17. Applicant’s attorneys argued against admitting testimony of Amanda Robinson regarding
a statement Applicant made that A.G. was
“hot.” (3 R.R. at 74). The trial court did not admit the testimony. (3 R.R. at 77).
18. Applicant’s attorneys cross-examined each of
the State’s witnesses during the guilt phase:
a.

Kimberly Gandy (2 R.R. at 124, 156);

b.

A.G. (2 R.R. at 186);

c.

Brenda Crawford (2 R.R. at 224, 232);

d.

Kimberly Lowery (3 R.R. at 26, 37);

e.

Josh Reynolds (3 R.R. at 49, 50);

f.

Terry Ivy (3 R.R. at 59, 66); and

g.

Amanda Robinson (3 R.R. at 80).

19. Applicant’s attorneys did not call any witnesses during the guilt phase of the trial. The
attorneys called the Applicant outside the
presence of the jury and the Applicant elected
not to testify. (3 R.R. at 77).

App. 30
20. Neither the State nor Applicant’s attorneys
objected to the following during the guilt phase:
a.

Jury charge on guilt. (3 R.R. at 85);

b.

The trial court’s response to Jury Note 1.
(3 R.R. at 125);

c.

The trial court’s response to Jury Note 2.
(3 R.R. at 126);

d.

The trial court’s response to Jury Note 3.
(3 R.R. at 127);

21. Both Paul Belew and David Singleton presented jury arguments at the close of the guilt
phase. (3 R.R. at 99, 114).
22. The jury convicted Applicant on December 13,
2012. (1 C.R. at 113, 121).
23. Attorney Belew requested permission to poll
the jury after the guilty verdict. (3 R.R. at 130).
24. Attorney Belew reserved opening statement
during the punishment phase. (4 R.R. at 12).
The defense later rested without opening. (4
R.R. at 35).
25. Applicant’s attorneys cross-examined both of
the State’s witnesses during the punishment
phase:
a.

Jessica White (4 R.R. at 22); and

b.

L.G. (4 R.R. at 31).

26. Applicant’s attorneys called five witnesses
during the punishment phase of the trial. (4
R.R. at 78).

App. 31
27. Neither the State nor Applicant’s attorneys
objected to the jury charge during the punishment phase. (4 R.R. at 74).
28. Paul Belew presented jury argument at the
close of the punishment phase. (4 R.R. at 80).
29. The jury sentenced the Applicant to sixty
years in the Institutional Division of the
Texas Department of Criminal Justice on December 13, 2012. (1 C.R. at 117, 121).
30. On January 9, 2013, Applicant’s attorneys
filed a notice of appeal. (1 C.R. at 123).
31. On January 10, 2013, the court appointed
Paul Belew to represent Applicant on appeal.
(1. C.R. at 126).
II.

CONCLUSIONS OF LAW APPLICABLE TO
APPLICANT’S GROUND FOR REVIEW IN
GENERAL
1.

The test for determining constitutionally ineffective assistance of counsel requires that
a defendant show by a preponderance of the
evidence that there is a reasonable probability that, but for counsel’s unprofessional
errors, the result of the proceeding would
have been different. See Davis v. State, 278
S.W.3d 346, 352 (Tex. Crim. App. 2009); see
also Bell v. Cone, 535 U.S. 685, 695 (2002);
Strickland v. Washington, 466 U.S. 668, 694
(1984).

2.

The test for ineffective assistance of counsel
is two-pronged: an appellate court must first

App. 32
determine whether, in light of all the circumstances, trial counsel’s acts or omissions were
outside the wide range of professional competent assistance. Rylander v. State, 101 S.W.3d
107, 110 (Tex. Crim. App. 2003). The court
must then assess whether there is a reasonable probability that, but for counsel’s unprofessional errors, the outcome of the proceeding
would have been different. See Perez v. State,
310 S.W.3d 890, 893 (Tex. Crim. App. 2010)
(quoting Strickland, 466 U.S. at 694).
3.

To succeed on an ineffectiveness claim, a defendant must show both components; failure
to show either deficient performance or prejudice will defeat the ineffectiveness claim. Perez, 310 S.W.3d at 893.

4.

The appellant has the burden to prove ineffective assistance of counsel by a preponderance
of the evidence. See Ex parte Martinez, 330
S.W.3d 891, 901 (Tex. Crim. App. 2011); Lampkin v. State, 470 S.W.3d 876, 897 (Tex. App. –
Texarkana 2015, pet. ref’d).

5.

When assessing the validity of a claim of ineffective assistance of counsel under the first
prong of analysis, there is a “strong presumption” that counsel’s performance falls within
the “wide range of professional assistance.”
Rylander, 101 S.W.3d at 110.

6.

Judicial scrutiny of counsel’s performance
must be highly deferential. See Bone v. State,
77 S.W.3d 828, 833 (Tex. Crim. App. 2002).

App. 33
7.

Whether a defendant received adequate assistance of counsel is judged by the totality of the
representation provided. McFarland v. State,
845 S.W.2d 824, 843 (Tex. Crim. App. 1992),
cert. denied, 508 U.S. 963 (1993) overruled
on other grounds by Bingham v. State, 915
S.W.2d 9, 9 (Tex. Crim. App. 1994), on reh’g,
913 S.W.2d 208 (Tex. Crim. App. 1995).

III. CONCLUSIONS OF LAW APPLICABLE [sic]
COUNSEL’S DECISION NOT TO OBJECT TO
TESTIMONY REGARDING THE CREDIBILITY OF A.G.
1.

Not objecting to testimony regarding the truthfulness of a child witness is not per se deficient
performance. Lopez v. State, 343 S.W.3d 137,
143-144 (Tex. Crim. App. 2011).

2.

Not objecting to testimony regarding the truthfulness of a child witness could be a reasonable trial strategy. Ex parte Lopez, No. WR82,579-01, 2015 WL 3899231, at *1 (Tex. Crim.
App. June 24, 2015) (not designated for publication).

3.

Counsel provided a reasonable explanation as
to why he did not object to testimony regarding the complainant’s truthfulness. Counsel
stated his trial strategy was to avoid emphasizing the witness’s testimony by objecting.
(Singleton Affidavit at 2-5); See Ex parte Lopez,
2015 WL 3899231 at *1.

4.

Counsel’s performance was not deficient for
not objecting to testimony and jury argument

App. 34
regarding the complainant’s truthfulness. Lopez
v. State, 343 S.W.3d at 143-144.
5.

The evidence against Applicant is strong and
would support a finding of guilt by the jury
even if the evidence to which Applicant objects
were disregarded. Ex parte Martinez, 330 S.W.3d
891, 902 (Tex. Crim. App. 2011).

6.

Applicant has not shown he was harmed by
counsel’s decision not to object to testimony
regarding the complainant’s truthfulness. See
Bell v. Cone, 535 U.S. 685, 695 (2002); Rompilla v. Beard, 545 U.S. 374, 383 (2005); Wiggins
v. Smith, 539 U.S. 510, 534 (2003); Perez v.
State, 310 S.W.3d 890, 892-93 (Tex. Crim. App.
2010); Ex parte Martinez, 195 S.W.3d 713, 72829 (Tex. Crim. App. 2006); Rylander, 101
S.W.3d 107, 110 (Tex. Crim. App. 2003).

IV. CONCLUSIONS OF LAW APPLICABLE [sic]
COUNSEL’S DECISION NOT TO OBJECT TO
TESTIMONY REGARDING THE RESULTS
OF THE CPS INVESTIGATION
1.

To show ineffective assistance of counsel based
on a failure to object to evidence, the applicant
must show the trial judge would have erred in
overruling the objection. Ex parte Martinez,
330 S.W.3d at 901.

2.

A witness may testify to an opinion based on
her perceptions if the testimony is helpful to
determine [sic] of a fact in issue. TEX. R. EVID.
701.

App. 35
3.

An opinion is not objectionable simply because it embraces an ultimate issue. TEX. R.
EVID. 704.

4.

Applicant has failed to show that the trial
judge would have erred in overruling an objection regarding testimony about the results
of the CPS investigation. Ex parte Martinez,
330 S.W.3d at 901.

5.

Counsel’s decision not to object to the results
of the CPS investigation was a reasonable
trial strategy because counsel was trying to
avoid emphasizing the testimony. (Singleton
Affidavit at 2-5).

6.

Counsel’s decision not to object to the results
of the CPS investigation was a reasonable
trial strategy because counsel repeatedly emphasized the lower burden of proof for a CPS
investigation. (3 R.R. at 33, 38, 111, 115, 116).

7.

Counsel’s performance was not deficient for
deciding not to object to testimony regarding
the results of the CPS investigation. Ex parte
Martinez, 330 S.W.3d at 901.

8.

The evidence against Applicant is strong and
would support a finding of guilt by the jury
even if the evidence to which Applicant objects
were disregarded. Ex parte Martinez, 330 S.W.3d
at 901.

9.

Applicant has not shown he was harmed by
counsel’s decision not to object to testimony
regarding to [sic] the results of the CPS investigation. See Bell, 535 U.S. at 695; Rompilla,
545 U.S. at 383; Wiggins, 539 U.S. at 534; Perez,

App. 36
310 S.W.3d at 892-93; Ex parte Martinez, 195
S.W.3d at 728-29; Rylander, 101 S.W.3d at 110.
V.

CONCLUSIONS OF LAW APPLICABLE [sic]
COUNSEL’S DECISION NOT TO OBJECT TO
TESTIMONY REGARDING APPLICANT’S FAILURE TO CONTEST THE CPS INVESTIGATION
1.

To show ineffective assistance of counsel based
on a failure to object to evidence, the applicant
must show the trial judge would have erred in
overruling the objection. Ex parte Martinez,
330 S.W.3d at 901.

2.

Applicant has failed to show that the trial
judge would have erred in overruling an objection to testimony regarding Applicant’s
failure to contest the CPS investigation. Ex
parte Martinez, 330 S.W.3d at 901.

3.

Counsel’s decision not to object to the testimony was a reasonable trial strategy. Counsel
effectively cross-examined Lowery; Lowery
admitted she had no knowledge as to whether
Applicant was aware of the finding. (3 R.R. at
35-36) (Singleton Affidavit at 4).

4.

Counsel’s performance was not deficient because he decided not to object to testimony
or argument regarding Applicant’s failure to
contest the CPS findings. Ex parte Martinez,
330 S.W.3d at 901.

5.

Applicant has not shown he was harmed by
counsel’s decision not to object to testimony regarding to the results of the CPS investigation.

App. 37
See Bell, 535 U.S. at 695; Rompilla, 545 U.S.
at 383; Wiggins, 539 U.S. at 534; Perez, 310
S.W.3d at 892-93; Ex parte Martinez, 195
S.W.3d at 728-29; Rylander, 101 S.W.3d at 110.
6.

The evidence against Applicant is strong
and would support a finding of guilt by the
jury even if the evidence to which Applicant
objects were disregarded. Ex parte Martinez,
330 S.W.3d at 902.

7.

Even if trial counsel’s performance was deficient, Applicant has failed to prove, by a preponderance of the evidence, that there is a
reasonable probability that, but for trial counsels’ unprofessional errors, the result of the
proceeding would have been different. See
Bell, 535 U.S. at 695; Rompilla, 545 U.S. at
383; Wiggins, 539 U.S. at 534; Perez, 310 S.W.3d
at 892-93; Ex parte Martinez, 195 S.W.3d at
728-29; Rylander, 101 S.W.3d at 110.
Signed on this, the 3 day of Oct 2017.
/s/ John Weeks
Judge Presiding
Senior Judge
Sitting by Assignment

App. 38
No. WR-86,083-01
No. CR16247-A
EX PARTE
MARK SHUMSKI

§ IN THE DISTRICT COURT
§ 271ST JUDICIAL DISTRICT
§
WISE COUNTY, TEXAS
§

AFFIDAVIT OF DAVID SINGLETON
THE STATE OF TEXAS §
§
COUNTY OF WISE
§
BEFORE ME, the undersigned authority, personally appeared David Singleton, who, being by me duly
sworn, deposed as follows:
“My name is David Singleton, I am over the age of
eighteen (18). I have no legal disabilities that preclude
me from duly executing this affidavit. I am of sound
mind, capable of making this affidavit, and personally
acquainted with the facts contained herein stated and
they are true and correct:
1.

My name is David Singleton.

2.

I am an attorney licensed to practice law and have
been licensed since November 6, 1992. My primary
area of practice is criminal law.

3.

On June 22, 2011 a Wise County Grand Jury indicted Mark Shumski on the charge of Sexual
Abuse of a Child, Continuous: Victim Under 14.

App. 39
4.

Mr. Shumski retained our firm to represent him in
this matter. On December 11, 2012 this case was
tried before a jury.

5.

Prior to the trial of the case, we had numerous
meetings both with Mr. Shumski and between ourselves to discuss and map out possible strategies
in defending Mark against the charges.

6.

Prior to the commencement of trial and for various
reasons, my partner Paul Belew and I had decided
that we would limit objections during the trial of
the case to objections that would likely preserve
harmful error or likely exclude particularly harmful testimony. Our reasoning was several fold.
We believed that given the nature of the charges
and the likely testimony and demeanor of the
witnesses that our best approach would be to appear as though we wanted to hide nothing; we
welcomed all the evidence. Based on some prior
experience with other members of the District Attorney’s office, we also believed that it was possible
that the State might lodge a number of objections,
creating the appearance that it did not want the
jury to hear all the facts. We also recognized the
fact that objections can call attention to testimony
(in effect “waking up” the jury) and were of the belief that while limiting instructions ands instructions to disregard might be significant in the
appellate process, they were far less significant in
a jury’s decision making process and are frequently disregarded.

7.

We did not decide to make no objections, rather to
be judicious and specific with the objections that
we did lodge.

App. 40
8.

We specifically discussed this strategy with Mr.
Shumski prior to trial and our reasons for the approach.

9.

During the trial of the case, the State called Kimberly Lowery. The State had previously provided
us with Ms. Lowery’s report and investigative materials.

10. Of the various witnesses who testified at trial, we
did not consider Ms. Lowery to be the most harmful or dangerous; rather we believed the testimony
of the Victim, her mother and a few others would
likely be accorded more weight by the jury.
11. Our reasoning was as follows. Specifically, we felt
neither Ms. Lowery nor her investigation would be
accorded great weight or significance by the jury.
Ms. Lowery had only been working for Child Protective Services for a little over a year at the time
of the investigation. She performed a limited, noncriminal investigation in which she interviewed
only witnesses favorable to the State. After hearing only one side of the story, she did not conclude Mr. Shumski had committed the act, but
rather that there was “reason to believe” the allegations.
12. At trial, Ms. Lowery’s testimony did not vary significantly from what we anticipated. In addition,
by this point in the trial, the jury did not appear
particularly attentive during her testimony. There
were several occasions where we could have objected – indeed, had we believed that the testimony was particularly harmful or that the jury
was particularly attentive or interested we could

App. 41
have made objections simply to interrupt the flow
of her testimony. This was not the case.
13. My partner, Paul Belew, usually watches the jury
during testimony and questioning. If the jury appears “interested” in a witness or line of questioning he will nudge me or lean over and say “object.”
Nothing he or I observed during Ms. Lowery’s testimony convinced us to alter our initial strategy.
In fact, during her direct testimony I leaned over
and conferred with him briefly and determined to
address matter on cross-examination rather than
“waking the jury up.”
14. Ms. Gandy was asked by the State, “And after you
– after you received this information, what did you
do?” 2:113:8-9. In her response, she added the
statement she believed her daughter. Similarly
when she was later asked about Mr. Shumski’s response when he was confronted with the allegations, she responded that her daughter has no
reason to lie. 2:149:7-11. Mr. Shumski wanted to
talk about the accusations and Ms. Gandy was
asked if they ever talked about it and replied that
she did not because she believed her daughter.
2:151:22-23. In each case the responses complained
of in the writ were unsolicited and non-responsive.
An objection would merely call attention to and
emphasize the answers in the minds of the jury.
We believed an instruction to disregard would not
be particularly effective.
15. Ms. Lowery was also asked by the State “How
would you describe XXXX demeanor during the
interview?” In response, Ms. Lowery added the
statement that the victim was credible. Again, we

App. 42
judged that objecting to her response would only
serve to call attention to it.
16. Ms. Lowery later testified that her supervisor
reads over and approves all findings, “she has
to read over the case and approve it.” RR 3:24-1415. In other words, her supervisor does no independent or additional investigation (the Forensic
Interview took place before the finding). On cross,
we confirmed that her part in the investigation
was conducting the Forensic Interview. RR 3:1423.
17. With respect to Mr. Shumski’s failure to appeal the
finding, first, Ms. Lowery confirmed that her finding were made after hearing only one side of the
story – she never interviewed Mr. Shumski. RR
3:35:6-9. Second, she conceded that she “leave[s]
the investigation, the criminal matter, to the Wise
County Sheriff ’s Office” RR 3:34:14-17. Third, Ms.
Lowery admitted she had no knowledge as to
whether Mr. Shumski was aware of or served with
the finding. RR 3:35:22-36:4.
18. Mr. Shumski complains that Detective Reynolds
was asked if he would have filed a complaint if he
believed the accusations were false. First, the various burdens of proof had been addressed in voir
dire and the jury was aware that the police operate
at the lowest level of probable cause. Second, as
soon as the question was asked, we believed it safe
to assume that a jury would assume the only answer Detective Reynolds could give was he would
not have filed a case if he disbelieved the victim. Based on that assumption, an objection would

App. 43
only serve to heighten the significance of his answer.
19. Mr. Shumski complains of statements made by Ms.
Ivy, the victim’s softball coach. The two specific
lines of questions were that the victim on one occasion became angry with Mr. Shunski and that
the victim never told her a lie. We believed neither
line was particularly harmful or significant. With
respect to the former, most children get angry from
time to time. With respect to the latter, we believed
Ms. Ivy would qualify as a reputation witness and
her testimony that the victim never told her a lie
tended to discredit her. It showed she either did
not know the victim well or that she was undiscerning. The jury had several parents, and we believed parents knew children do in fact lie.
Further affiant sayeth not.”
WITNESS MY HAND this 31 day of May, 2017.
/s/ David Singleton
DAVID SINGLETON
Affiant

BEFORE ME, the undersigned authority, on this
day personally appeared David Singleton, known to me
to be the person whose name is subscribed to the foregoing instrument, and after being duly sworn by me,
did state upon his oath that the facts contained in said
instrument are true and correct.

App. 44
SUBSCRIBED AND SWORN TO before me, on
this the 31 day of May, 2017 to certify which witness
my hand and seal of office.

[Notary Stamp]

/s/ Juanita VanDerLee
Notary Public in and for
the State of Texas
My Commission
Expires: 7-11-18

